Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Sherburne County, Minnesota Sheriff's Department
GR-50-01-005July 9, 2001Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Sherburne County, Minnesota Sheriff's Department (Sherburne County SD).  The purpose of the grants is to enhance community policing.  The Sherburne County SD was awarded a total of $563,175 to hire 6 deputies and redeploy the equivalent of 3.2 existing full-time deputies from administrative duties to community policing.

We reviewed the Sherburne County SD's compliance with seven essential grant conditions and determined that the grantee was generally in compliance with the grant conditions tested.  However, we found weaknesses in the maintenance of grant records and monitoring the redeployment of deputies.  Specifically:

Grant accounting records did not include all program-related costs.  As such, local outlays and total program costs were understated on the Financial Status Reports.
	The Sherburne County SD had not developed a plan to monitor deputy redeployment to community policing activities as a result of the MORE 96 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.